OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/WEST BANK
AND GAZA’S PARTNER
VETTING AND GEO-
MANAGEMENT INFORMATION
SYSTEMS (EXECUTIVE
SUMMARY)

AUDIT REPORT NO. 6-294-14-007-P
APRIL 23, 2014



CAIRO, EGYPT
This is an executive summary of our report on “Audit of USAID/West Bank and Gaza’s Partner
Vetting and Geo-Management Information Systems.” The Federal Information Security Management
Act of 2002 (FISMA) requires agencies to implement an agency-wide information security program
to protect their information and information systems, including those provided or managed by
another agency, contractor, or source. The act also requires agencies to have an annual
assessment of their information systems.

In response to FISMA requirements, National Institute for Standards and Technology (NIST)
developed Federal Information Processing Standards (FIPS) 200, “Minimum Security Requirements
for Federal Information and Information Systems,” and FIPS 199, “Standards for Security
Categorization of Federal Information and Information Systems,” to make sure all federal agencies
comply with FISMA. NIST also established guidelines in its Special Publication 800-53 for selecting
and specifying security controls for organizations and information systems to help executive
agencies meet the requirements of FIPS 200.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this audit as part of its fiscal year 2013
audit plan. The objective was to determine whether USAID/West Bank and Gaza implemented
minimum security controls to protect the confidentiality, integrity, and availability of three of the
mission’s critical information systems—the Partner Vetting System, Partner Vetting System
Nongovernmental Organization Portal, and Geo-Management Information System—according to the
NIST requirements. While the mission has implemented some controls for all three systems, the
audit found weaknesses in other security control areas that needed improvement.

Based on the audit results, RIG/Cairo made 37 recommendations to help USAID/West Bank and
Gaza and USAID/Office of Security strengthen their information security program. Management
decisions were made on 37 recommendations, and final action was taken on 7 of them.
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
